TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Despite Steps Taken to Increase Electronic
                   Returns, Unresolved Modernized e-File
                  System Risks Will Delay the Retirement of
                        the Legacy e-File System and
                     Implementation of Business Forms



                                      September 27, 2012

                              Reference Number: 2012-20-121




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document..



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                 HIGHLIGHTS


DESPITE STEPS TAKEN TO INCREASE                      that unresolved performance issues with
ELECTRONIC RETURNS, UNRESOLVED                       MeF Release 7.0 existed as of its deployment.
MODERNIZED E-FILE SYSTEM RISKS                       In addition, the IRS Information Technology
WILL DELAY THE RETIREMENT OF THE                     organization is planning significant infrastructure
                                                     changes in Calendar Year 2012 that will
LEGACY E-FILE SYSTEM AND
                                                     introduce uncertainty and may affect MeF
IMPLEMENTATION OF BUSINESS                           system reliability. Further, the IRS has not
FORMS                                                developed a retirement plan for the Legacy
                                                     e-File system that includes the conditions that
Highlights                                           will need to be met before the system can be
                                                     shutdown. Lastly, the MeF system has not yet
Final Report issued on                               fully demonstrated the ability to process all
                                                     electronically filed returns for an entire filing
September 27, 2012
                                                     season, projected to be over 121 million
                                                     combined individual and business returns.
Highlights of Reference Number: 2012-20-121
to the Internal Revenue Service Chief                WHAT TIGTA RECOMMENDED
Technology Officer.
                                                     TIGTA recommended that the Chief Technology
IMPACT ON TAXPAYERS                                  Officer: 1) advise the Wage and Investment
                                                     Division to defer retirement of the Legacy e-File
The Modernized e-File (MeF) system, which will
                                                     system until the increased risk associated with
replace the existing electronic filing system (the
                                                     its retirement can be addressed; 2) update the
Legacy e-File system), is a critical component of
                                                     Internal Revenue Manual to include improved
the IRS initiative to meet the needs of taxpayers,
                                                     performance testing processes, ensure system
reduce taxpayer burden, and broaden the use of
                                                     performance test teams obtain approved
electronic interactions. Unresolved performance
                                                     waivers or deferrals when performance tests are
issues with MeF Release 7.0 and planned
                                                     not executed, and ensure performance test
Calendar Year 2012 infrastructure changes have
                                                     teams submit End of Test Status Reports for
impaired the IRS’s efforts to retire the existing
                                                     senior management review; and 3) advise the
Legacy e-File system and have delayed plans
                                                     Wage and Investment Division to complete a
for receiving employment tax forms through
                                                     retirement plan for the Legacy e-File system as
MeF Release 8.0. Deferring the implementation
                                                     well as communicate retirement milestones and
of employment tax forms and schedules will
                                                     timelines to key stakeholders.
further delay the ability to detect employment tax
return errors on a real-time basis.                  In their response to the report, IRS officials
                                                     partially agreed with the recommendations. The
WHY TIGTA DID THE AUDIT                              IRS is taking steps to build a contingency plan
This review was part of our Fiscal Year 2011         for the MeF system and updating Internal
Annual Audit Plan and addresses the major            Revenue Manuals. However, IRS officials did
management challenge of Modernization. The           not state they would develop a Legacy e-File
overall audit objective was to evaluate the IRS’s    system retirement plan, along with associated
progress toward having transmitters fully            implementation dates and monitoring plans.
participate in the MeF system and retiring the
Legacy e-File system in October 2012.
WHAT TIGTA FOUND
The IRS took steps to increase the volume of
returns transmitted to the MeF system and
increased the number of vendors’ software
packages available to transmit electronic tax
returns. However, our audit findings indicate
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 27, 2012


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Despite Steps Taken to Increase Electronic
                             Returns, Unresolved Modernized e-File System Risks Will Delay
                             the Retirement of the Legacy e-File System and Implementation of
                             Business Forms (Audit # 201120025)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) progress
 toward having transmitters fully participate in the Modernized e-File System and retiring the
 Legacy e-File system in October 2012. This audit was included in the Treasury Inspector
 General for Tax Administration’s Fiscal Year 2011 Annual Audit Plan and addresses the major
 management challenge of Modernization.
 Management’s complete response to the draft report is included in Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have any questions or Alan R.
 Duncan, Assistant Inspector General for Audit (Security and Information Technology Services),
 at (202) 622-5894.
                                Despite Steps Taken to Increase Electronic Returns,
                                  Unresolved Modernized e-File System Risks Will
                                 Delay the Retirement of the Legacy e-File System
                                      and Implementation of Business Forms




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The IRS Took Positive Steps to Increase the Volume
          of Tax Returns Transmitted to MeF Release 7.0 During
          the 2012 Filing Season .................................................................................. Page 5
          An Increased Number of Transmitters’ Software Packages
          Passed MeF Release 7.0 Software Assurance Testing
          Prior to Deployment ...................................................................................... Page 5
          The IRS Introduced Compensating Controls to Mitigate
          Risks Associated With Failed MeF Release 7.0 Systems
          Acceptability Tests........................................................................................ Page 6
          Unresolved Performance Issues and Infrastructure Changes
          Have Impaired Efforts to Retire the Legacy e-File System
          and Caused the IRS to Defer the Implementation of
          Employment Tax Forms in MeF Release 8.0 ............................................... Page 7
                     Recommendation 1:........................................................ Page 8

          Guidance Does Not Require Test Waivers, Test Deferrals,
          and End of Test Status Reports for Performance Testing ............................. Page 9
                     Recommendation 2:........................................................ Page 10

          The IRS Has Not Developed a Retirement Plan, Including
          Measurable Shutdown Conditions, for the Legacy e-File
          System ........................................................................................................... Page 10
                     Recommendation 3:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 15
                    Despite Steps Taken to Increase Electronic Returns,
                      Unresolved Modernized e-File System Risks Will
                     Delay the Retirement of the Legacy e-File System
                          and Implementation of Business Forms


Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – Comparison of the Modernized e-File and
Legacy e-File Systems .................................................................................. Page 17
Appendix V – Glossary of Terms ................................................................. Page 18
Appendix VI – Management’s Response to the Draft Report ...................... Page 21
         Despite Steps Taken to Increase Electronic Returns,
           Unresolved Modernized e-File System Risks Will
          Delay the Retirement of the Legacy e-File System
               and Implementation of Business Forms




                    Abbreviations

ATS          Assurance Testing System
e-File       Electronically File
IRS          Internal Revenue Service
IRS IT       IRS Information Technology
MeF          Modernized e-File
SAT          Systems Acceptability Testing
W&I          Wage and Investment
                           Despite Steps Taken to Increase Electronic Returns,
                             Unresolved Modernized e-File System Risks Will
                            Delay the Retirement of the Legacy e-File System
                                 and Implementation of Business Forms




                                              Background

The mission of the Internal Revenue Service (IRS)
Information Technology (IRS IT)1 organization is to        The IRS deployed MeF Release 7.0
deliver information technology services and solutions    into production on January 17, 2012,
that drive effective tax administration to ensure public       for the 2012 Filing Season.
confidence. The Applications Development function         Release 7.0 included all Form 1040
within the IRS IT organization is responsible for         (U.S. Individual Income Tax Return)
building, testing, delivering, and maintaining                series forms and schedules.
integrated information systems to support systems and
their production environment. This includes developing, testing, and maintaining the
Modernized e-File (MeF) system. The IRS Wage and Investment (W&I) Division serves as the
system owner for the MeF system.
The MeF system directly supports the IRS’s strategic plan to improve taxpayer service, enhance
enforcement of the tax law, and modernize the IRS through its people, processes, and
technology. It is also a critical component of the W&I Division initiative to meet the needs of
taxpayers, reduce taxpayer burden, broaden the use of electronic interactions, and support the
mission of the Small Business/Self-Employed Division.
In December 1998, the IRS announced a strategic goal to revolutionize the way taxpayers
transact and communicate with the IRS. In order to achieve this goal, the IRS initiated plans to
replace the existing electronic filing system, referred to as the Legacy e-File system, with the
MeF system. Once completely developed and deployed, the MeF system will accept electronic
tax returns for corporations, partnerships, nonprofit/tax-exempt businesses, and individuals via a
modernized Internet-based platform. The MeF system currently enables real-time processing of
tax returns while improving error detection, standardizing business rules, and expediting
acknowledgments to taxpayers. The MeF system also allows for standard electronic attachments
with tax forms. Appendix IV provides a detailed comparison of key features for the Legacy
e-File and MeF systems. Figure 1 shows key processes and systems for accepting, rejecting, and
forwarding both paper and electronic returns through IRS systems and subsystems.




1
  On July 1, 2012, the Modernization and Information Technology Services organization officially changed its name
to the Information Technology organization. The name change reflects a shift in the organization’s way of thinking
and operating as it collaborates with the business and functional operating divisions to deliver the IRS’s mission.
Instead of modernization being treated as a separate and distinct strategic offering within the IRS IT organization, it
will now be incorporated into the overall portfolio.
                                                                                                                Page 1
                         Despite Steps Taken to Increase Electronic Returns,
                           Unresolved Modernized e-File System Risks Will
                          Delay the Retirement of the Legacy e-File System
                               and Implementation of Business Forms


                       Figure 1: Key IRS Processes and Systems for
                     Accepting, Rejecting, and Forwarding Tax Returns




Source: Combination of IRS As-Built Architecture data flows and application development documentation.
Note: EMS = Electronic Management System. FTP = File Transfer Protocol. GMF = Generalized Mainline
Framework. XML = Extensible Markup Language.

                                                                                                         Page 2
                         Despite Steps Taken to Increase Electronic Returns,
                           Unresolved Modernized e-File System Risks Will
                          Delay the Retirement of the Legacy e-File System
                               and Implementation of Business Forms


In February 2004, the IRS deployed the initial release2 of the MeF system, which provided for
electronic filing of Form 1120, U.S. Corporation Income Tax Return, and associated corporate
forms. In February 2010, the IRS deployed MeF Release 6.1 to begin electronically processing
the Form 1040, U.S. Individual Income Tax Return, series along with 22 other forms and
schedules. MeF Release 6.2 deployed in January 2011 and focused on improving system
performance and capacity. MeF Release 7.0 deployed on January 17, 2012, for the 2012 Filing
Season. The latest release included the remaining Form 1040 series forms and schedules. Since
February 2004 when the IRS first deployed the MeF system, the IRS has also maintained the
Legacy e-File system while it has developed and deployed subsequent MeF system releases to
accommodate more returns.
The Submission Processing Executive Steering Committee is chartered by the IRS IT Enterprise
Governance Committee and governs projects within the Submissions Processing function
portfolio, including the MeF system. Its primary objective is to ensure project objectives are
met, risks are managed appropriately, and the expenditure of enterprise resources is fiscally
sound. On January 10, 2012, the IRS reported to the Executive Steering Committee that
MeF Release 7.0 cost $62.1 million; this includes Fiscal Year 2012 MeF Release 7.0
development costs but does not include IRS employee salaries and travel costs.
We previously reported3 that the volume of returns processed by the MeF system had fallen short
of expectations for the 2010 and 2011 Filing Seasons. Specifically, as of April 18, 2011, the
number of electronically filed individual tax returns transmitted through the MeF system for the
2011 Filing Season was 8.7 million. This was significantly lower than the 35 million individual
tax returns the IRS had projected to be filed electronically through the system for the 2011 Filing
Season. The low volume of returns processed by the MeF system at that time affected the IRS’s
ability to test the system’s capacity and performance with a volume of transactions representative
of production processing.
This review was performed at the IRS IT organization in New Carrollton, Maryland, during the
period August 2011 through April 2012. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




2
 See Appendix V for a glossary of terms.
3
 TIGTA, Ref. No. 2011-40-131, Low Participation and Tax Return Volumes Continue to Hinder the Transition of
Individual Income Tax Returns to the Modernized e-File System (Sept. 2011).
                                                                                                      Page 3
                           Despite Steps Taken to Increase Electronic Returns,
                             Unresolved Modernized e-File System Risks Will
                            Delay the Retirement of the Legacy e-File System
                                 and Implementation of Business Forms




                                       Results of Review

The IRS took steps to increase the volume of tax returns that transmitters would submit to the
MeF system during the 2012 Filing Season. In addition, as of MeF Release 7.0 deployment on
January 17, 2012, the IRS doubled the number of vendors’ software packages that were available
to submit electronic tax returns through the MeF system compared to the same time last year.
Although the IRS took these positive steps, our audit findings indicate that unresolved
performance issues existed with MeF Release 7.0 at the time of deployment. In addition, the IRS
IT organization is planning significant infrastructure changes in Calendar Year 2012 that will
introduce uncertainty and may affect the MeF system’s reliability. Unresolved MeF Release 7.0
performance issues and the planned infrastructure changes have impaired the IRS’s efforts to
retire the Legacy e-File system and have caused the IRS to defer the implementation of
employment tax forms in MeF Release 8.0. Deferring the implementation of employment tax
forms and schedules in MeF Release 8.0 will postpone the IRS from detecting employment tax
return errors on a real-time basis. Further, the IRS has not developed a retirement plan for the
Legacy e-File system, including measurable shutdown conditions and milestones. Lastly, MeF
Release 7.0 has not yet fully demonstrated the ability to process all electronically filed returns for
an entire filing season, which for the 2012 Filing Season was projected to be over 121 million4
combined individual and business returns. During the 2012 Filing Season, the MeF system
experienced problems that delayed refunds for about a week for millions of taxpayers. As a
result, the IRS instructed transmitters to fall back to filing electronic returns to the Legacy e-File
system during this time.
Our review of IRS Systems Acceptability Testing (SAT) of MeF Release 7.0 found that the IRS
took necessary steps to introduce compensating controls aimed at mitigating risks associated
with 30 failed SAT tests. However, our review of performance testing for MeF Release 7.0
found that IRS guidance does not require test waivers, test deferrals, and End of Test Status
Reports for performance testing. As a result, MeF Release 7.0 performance test documentation
was not sufficient for us to determine the significance of performance test results, how the test
results related to performance requirements, and if performance requirements were sufficiently
satisfied.




4
  As of April 17, 2012, the IRS reported the following statistics for the 2012 Filing Season: 49 million returns were
transmitted to the Legacy e-File system and 72 million returns were transmitted to the MeF system, for a total of
121 million electronically filed returns.
                                                                                                              Page 4
                      Despite Steps Taken to Increase Electronic Returns,
                        Unresolved Modernized e-File System Risks Will
                       Delay the Retirement of the Legacy e-File System
                            and Implementation of Business Forms


The IRS Took Positive Steps to Increase the Volume of Tax Returns
Transmitted to MeF Release 7.0 During the 2012 Filing Season
Prior to the 2012 Filing Season, the low volume of tax returns processed by the MeF system
impaired the IRS’s ability to test the system for sufficient capacity and performance to meet a
steadily increasing number of electronic tax return transmissions. Specifically, during the 2010
and 2011 Filing Seasons, the actual volume of returns transmitted to the MeF system fell
considerably short of IRS expectations. To address this condition, the IRS took steps to secure
commitments from large transmitters (e.g., transmitters with one million or more electronically
filed returns in the 2011 Filing Season) for the percentage of returns each transmitter agreed to
transmit to the MeF system during the 2012 Filing Season. During the 2012 Filing Season, the
IRS operated both the Legacy e-File and MeF systems and planned to fully retire the Legacy
e-File system in October 2012. To help ensure that the MeF system received the volume needed
to test system capacity and performance during the 2012 Filing Season, the IRS put early
parameters in place to limit the volume of tax returns transmitted to the Legacy e-File system.
The IRS communicated to transmitters that companies that had electronically transmitted
one million or more electronic returns (including all Forms 1040 and extensions) during the
2011 Filing Season were required to transmit returns through the MeF system for the 2012 Filing
Season.
By securing MeF system volume commitments prior to the start of the 2012 Filing Season and
limiting the use of the Legacy e-File system, tax return volumes transmitted to the MeF system
will likely increase, which will enable the IRS to better assess the MeF system’s capacity and
performance capabilities. For the 2011 Filing Season, the IRS received only 8.7 million
individual tax returns through the MeF system, of which 6.2 million were filed through the
system by April 18, 2011. Subsequent to our audit fieldwork, the IRS reported that as of
April 17, 2012, the MeF system received 72.4 million individual tax returns, whereas the Legacy
e-File system received 49.8 million returns for the same period.

An Increased Number of Transmitters’ Software Packages Passed
MeF Release 7.0 Software Assurance Testing Prior to Deployment
The IRS reported that as of January 17, 2012, 41 vendor software packages had successfully
passed Tax Year 2011 MeF Assurance Testing System (ATS) tests. The preliminary results of
ATS testing through January 17, 2012, represented a significant increase over the number of
software packages (23) that the IRS reported as having passed ATS testing as of the same time in
2011.
Software developers participating in the MeF system software testing process must complete
ATS testing in accordance with the applicable publication for each type of tax return that is
transmitted through the MeF system. Publication 1436, Test Package for Electronic Filers of

                                                                                           Page 5
                       Despite Steps Taken to Increase Electronic Returns,
                         Unresolved Modernized e-File System Risks Will
                        Delay the Retirement of the Legacy e-File System
                             and Implementation of Business Forms


Individual Income Tax Returns for Tax Year 2011, details the ATS test requirements for Tax
Year 2011. Specifically, Publication 1436 outlines numerous tax return scenarios that each
software developer must successfully complete in order for its software package to be accepted
into the MeF program for the 2012 Filing Season. This testing began on October 31, 2011. We
reviewed all periodic ATS status reports from the IRS Electronic Products and Services Support
organization. We judgmentally reviewed test case files for seven of 25 transmitters that had
submitted approved test cases. Each test case file contained test data on software packages for a
particular transmitter participating in ATS testing. We evaluated the test case files and verified
that each MeF software package designated as having passed ATS testing met the ATS test
requirements outlined in Publication 1436.
The emphasis on promoting the MeF system as the preferred platform for electronic filing has
encouraged transmitters to complete ATS testing for their respective software packages. In
addition, the increased number of software packages passing ATS testing provided tax preparers
a greater selection of software packages to use when preparing and electronically filing their
2012 Filing Season tax returns.

The IRS Introduced Compensating Controls to Mitigate Risks
Associated With Failed MeF Release 7.0 Systems Acceptability Tests
The SAT is required to help ensure that designed and delivered software meets customer
requirements. Most of the 4,491 SAT test cases met stated functional requirements for the MeF
system. However, to mitigate the risk that 30 failed test cases may adversely affect the
processing of tax returns, the W&I Division and IRS IT organization took steps to implement
compensating controls prior to and during deployment of MeF Release 7.0. Specifically, the IRS
prioritized test cases for resolution handling, patched code prior to the January 17, 2012,
deployment date, relied on another IRS error detection system until the code could be patched, or
correctly explained to transmitters that certain error responses were in fact not errors.
For MeF Release 7.0, SAT took place between July 13, 2011, and January 13, 2012, and
included four code releases. The Enterprise Systems Testing function within the IRS IT
organization is responsible for independently conducting quality assessments of application
software, including MeF system software. This includes testing the MeF system with controlled
data to determine conformance of the system to customer requirements and aiding the customers
and developers in determining the system’s production readiness. For MeF system testing,
Enterprise Systems Testing function personnel relied on requirements derived from Unified
Work Requests to prepare test scenarios, data, and expected test results. A Unified Work
Request is a mechanism to document, control, monitor, and track requests to the IRS IT
organization for changes to IRS computer systems and for support. There were a total of
145 Unified Work Requests and 4,491 test cases for MeF Release 7.0.



                                                                                            Page 6
                       Despite Steps Taken to Increase Electronic Returns,
                         Unresolved Modernized e-File System Risks Will
                        Delay the Retirement of the Legacy e-File System
                             and Implementation of Business Forms


According to the End of Test Status Report, dated January 20, 2012, there were 30 failed SAT
test cases requiring resolution at the conclusion of the SAT process. Thirteen of the failed test
cases related to specific MeF business rules that help to prevent fraud and detect errors. The
remaining 17 failed test cases related to MeF application code and edit rules that primarily affect
downstream processing of tax returns after transmission through the MeF system.

Unresolved Performance Issues and Infrastructure Changes Have
Impaired Efforts to Retire the Legacy e-File System and Caused the
IRS to Defer the Implementation of Employment Tax Forms in
MeF Release 8.0
The IRS must conduct successful performance testing of the MeF system to provide assurance
that the Legacy e-File system can be retired as planned. It is important that the system
demonstrate the ability to process all business and individual returns filed electronically for an
entire filing season, which was projected to be over 121 million returns for the 2012 Filing
Season. Internal Revenue Manual 2.5.2, Systems Development – Software Testing Standards and
Procedures, dated September 3, 2010, states “Performance testing is required to determine
whether the system undergoing testing can effectively process transactions under expected
normal and peak workload conditions and within acceptable response times.” If performance
and capacity tests are not successful, the risk that the system may fail to meet stated business
performance requirements is increased. Specific risks include the possibility that an application
could become unavailable to process mission-critical transactions or the system could experience
unexpected outages or degraded response times.
MeF Release 7.0 performance testing disclosed unresolved performance issues as of
deployment in January 2012. These issues involved 100 percent central processing unit
utilization, time-consuming events, and poor input and output of MeF data. More specifically,
the test results indicated that the system was running at capacity, having problems returning
acknowledgements in a timely manner, experiencing a high volume of traffic to its database,
and experiencing time-consuming get/send services transactions that posed a possible denial of
service condition. The cause of the performance issues is multifaceted and involves the
architecture of the application code, the database configuration, memory and disk management,
and the processing capacity of MeF system processors.
In addition to improving MeF Release 7.0 system performance, the IRS must be prepared to
respond to planned enterprise-wide infrastructure changes that include upgrading Service-wide
storage devices, deploying enterprise-wide software to run Java programs, deploying a new web
portal, and upgrading to Internet Explorer 8.® Further, the IRS IT organization must identify and
implement code fixes as its W&I Division business partner identifies production issues and
creates new work requests for the MeF system. Uncertainty regarding MeF system reliability
due to these upcoming planned enterprise-wide infrastructure changes will affect many IRS

                                                                                             Page 7
                            Despite Steps Taken to Increase Electronic Returns,
                              Unresolved Modernized e-File System Risks Will
                             Delay the Retirement of the Legacy e-File System
                                  and Implementation of Business Forms


systems and applications. Resolving MeF system performance and reliability weaknesses within
the planned environment is critical to ensure the IRS meets its goal of transitioning to the MeF
system as the single system for processing electronic tax returns.
MeF Release 8.0 was initially scheduled to deploy employment tax forms and schedules in
January 2013. However, on January 10, 2012, the IRS IT organization requested a scope change
for MeF Release 8.0. The change included the resolution of MeF performance issues and
preparation for planned infrastructure changes. The Submission Processing Executive Steering
Committee approved the change request and determined that MeF Release 8.0 will not contain
the new forms and schedules initially planned for the release. Under this new approach for MeF
Release 8.0 development and implementation, the following tasks are underway to improve
system performance and reliability:
          Modify the architecture of MeF application code to reduce high processor utilization,
           improve timeliness of generating acknowledgements, and reduce the likelihood of
           creating a denial of service condition.
          Investigate data caching products that could allow the application to reduce the level of
           work on the database.
          Modify the database configuration and upgrade the database patch-level.
          Improve database disk management.
          Upgrade MeF processors to accommodate larger files.
Of the 29.7 million employment tax returns filed in the 2010 Filing Season, 77 percent were filed
on paper, with the remainder e-filed to the Legacy e-File system. Deferring the implementation
of employment tax forms and schedules in MeF Release 8.0 will postpone the IRS from
detecting employment tax return errors on a real-time basis. In addition, MeF Release 7.0 has
not fully demonstrated the ability to process all electronically filed tax returns for an entire filing
season. Coupled with the uncertain impact of planned infrastructure changes, these unresolved
system performance and reliability issues necessitate a careful reevaluation of the IRS’s initial
plans to retire the Legacy e-File system in October 2012.
For information regarding the 2012 Filing Season, please refer to our audit report, While Use of
the Modernized e-File System for Individual Tax Returns Has Increased, the Legacy e-File
System Is Still Needed As a Backup.5

Recommendation
Recommendation 1: To deliver information technology services and solutions that drive
effective tax administration, we recommend that the Chief Technology Officer advise the

5
    Ref. No. 2012-40-012, dated Aug. 2012.
                                                                                                Page 8
                       Despite Steps Taken to Increase Electronic Returns,
                         Unresolved Modernized e-File System Risks Will
                        Delay the Retirement of the Legacy e-File System
                             and Implementation of Business Forms


W&I Division to defer the retirement of the Legacy e-File system until the increased risk
associated with retiring the system can be addressed.
       Management’s Response: The IRS agreed with our recommendation and is taking
       the prudent step of building a contingency for the Legacy e-File system to accept a
       limited set of individual tax return forms and schedules should the MeF system
       experience serious productions issues. Given the results of tests to date, the IRS does not
       expect to invoke this contingency during the 2013 Filing Season.

Guidance Does Not Require Test Waivers, Test Deferrals, and End of
Test Status Reports for Performance Testing
Internal Revenue Manual 2.16.1, Enterprise Life Cycle, dated September 4, 2010, pertains to
systems tests. Tests for IRS systems include system acceptability tests, system integration tests,
and final integration tests. Testing is undertaken to determine that the complete integrated
solution works as intended. Further, system tests determine that the system executes properly
without errors, expected results are obtained, performance is acceptable, and requirements are
satisfied. While general guidance provided by the Internal Revenue Manual addresses what
systems tests and performance tests should accomplish, it does not provide guidance for or
require End of Test Status Reports for performance testing or approval for test waivers or test
deferrals. These specific process controls, however, are necessary to ensure that: (a) system
performance tests are executed or are authorized by management to be waived or deferred;
(b) system performance test results are documented and mapped to the related system
performance requirements, thereby ensuring performance requirements are satisfied; and
(c) valid performance test conclusions are reached, documented, and reported to management.
Because an End of Test Status Report was not required for performance testing, MeF system
performance testing documentation simply showed test results by topic and corrective actions
that the IRS planned to take. Performance test documentation was not sufficient to determine the
significance of the performance test results, how the test results related to performance
requirements, and whether or not performance requirements were sufficiently satisfied through
the testing process. For example, the IRS identified and approved 16 performance requirements
in its MeF Release 7.0 Business System Requirements Report. Eleven of those requirements
represented performance capabilities required of the Registered User Portal and Employee User
Portal web servers for handling MeF transactions. The Performance Enhancement Team Test
Plan specifically requires that MeF Release 7.0 performance tests were to include portal,
enterprise, backend, and mainframe components. During our review, officials revealed that the
11 web server requirements were not tested prior to MeF Release 7.0 deployment. Further,
responsible IRS IT organization personnel informed us that they did not request or obtain a
deferral or waiver to exclude these requirements from testing, even though this could have
provided for management’s authorization not to test all system requirements as planned.
Moreover, an End of Test Status Report for MeF system performance testing was not prepared,

                                                                                             Page 9
                          Despite Steps Taken to Increase Electronic Returns,
                            Unresolved Modernized e-File System Risks Will
                           Delay the Retirement of the Legacy e-File System
                                and Implementation of Business Forms


even though this report would have provided information regarding test results to allow
customers, developers, and management to assess the quality of the product and its readiness for
deployment.

Recommendation
Recommendation 2: The Chief Technology Officer should update relevant Internal Revenue
Manual sections and ensure that system performance test teams: a) obtain approved waivers or
deferrals if performance tests are not executed, and b) prepare and submit End of Test Status
Reports to senior management for performance tests completed.
        Management’s Response: The IRS agreed with our recommendation and is
        updating Internal Revenue Manual 2.127, Software Testing Standards and Procedures, to
        reflect these additional requirements for performance testing.

The IRS Has Not Developed a Retirement Plan, Including Measurable
Shutdown Conditions, for the Legacy e-File System
The IRS has not yet developed a Legacy e-File system retirement plan that includes measureable
shutdown conditions that should be achieved before the system can be retired. Further, the IRS
has not obtained approval from the Submission Processing Executive Steering Committee for its
retirement plan and has not clearly communicated actionable retirement plans to internal and
external stakeholders.
Internal Revenue Manual 2.16.1, Enterprise Life Cycle, dated September 4, 2010, states that
retirement or termination status represents the end of a project or system’s life cycle. It provides
for the systematic termination of a project or system to ensure that vital information is preserved
for potential future access or reactivation. The emphasis of this status is to ensure that the
project or system (e.g., equipment, parts, software, data, procedures, and documentation) is
packaged and disposed of in accordance with appropriate regulations and requirements.
In the Electronic Tax Administration Advisory Committees Annual Report6 dated June 2011, the
committee recommended that “By October 31, 2011, the IRS should develop specific shutdown
conditions for retiring Legacy after the 2012 Filing Season. The IRS should develop an internal
fallback plan if the retirement deadline is not met or the MeF platform is unable to handle the
volume.” We met with IRS management to discuss their system retirement planning efforts and,

6
  The Internal Revenue Service Restructuring and Reform Act of 1998 (RRA 98), Pub. L. No 105-106, 112 Stat. 685
(codified as amended in scattered sections of 2 U.S.C, 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C.,
31 U.S.C., 38 U.S.C., and 49 U.SC.) authorized the creation of the Electronic Tax Administration Advisory
Committee. This committee has a primary duty of providing input to the IRS on its strategic plan for electronic tax
administration. Its responsibilities involve researching, analyzing, and making recommendations on a wide range of
electronic tax administration issues, as well as annually reporting to Congress.
                                                                                                          Page 10
                      Despite Steps Taken to Increase Electronic Returns,
                        Unresolved Modernized e-File System Risks Will
                       Delay the Retirement of the Legacy e-File System
                            and Implementation of Business Forms


specifically, what actions they planned in response to these recommendations. They indicated
that a retirement plan for the Legacy e-File system was not in place because they were focusing
on deploying MeF Release 7.0 for the 2012 Filing Season. The officials also noted that the IRS
is not required to follow the recommendations from the committee and stressed the intent to
reassess the situation after the 2012 Filing Season.
When specific and measurable performance metric shutdown conditions are documented, agreed
upon, and achieved, the IRS will have valid criteria on which to base its decision to recommend
the retirement of this mission-critical system. By identifying key stakeholder steps and timelines
for shutting down the Legacy e-File system, IRS management can better implement a controlled,
orderly shutdown of the system and help ensure a smooth transition to its goal for sole reliance
on the MeF system to accept all electronic returns.

Recommendation
Recommendation 3: The Chief Technology Officer should advise the W&I Division to
develop a Legacy e-File system retirement plan, obtain governance approval of the retirement
plan, and communicate to key internal and external stakeholders the activities and timeline for
retiring the Legacy e-File system. The retirement plan should include: a) specific and
measurable qualitative and quantitative shutdown conditions that should be achieved in order for
the Applications Development function to recommend that the Legacy e-File system be retired,
and b) a fallback plan if the shutdown conditions to retire the system are not achieved or if the
MeF system is unable to handle peak filing season volume.
       Management’s Response: The IRS agreed with our recommendation and is
       developing a Legacy e-File contingency with a limited set of individual forms and
       schedules. The legacy system will be dormant and will only be invoked should the MeF
       system experience production issues. To ensure that MeF will be able to process all of
       the 2013 Filing Season volume, the IRS is focusing Release 8.0 efforts on system
       performance and stability. Furthermore, although discussions regarding the future of the
       Legacy e-File environment have taken place, a final decision to retire the Legacy e-File
       system has not been made. When the IRS is ready for a final decision, it will be made
       through the existing formal governance process established over this environment. The
       IRS is implementing technology solutions to increase processing throughput and
       proactively monitor the health of the system for any bottlenecks.
       Office of Audit Comment: The IRS management response is silent on whether they
       agree or disagree with our recommendation to develop a Legacy e-File system retirement
       plan, obtain governance approval of the retirement plan, and communicate to key internal
       and external stakeholders the activities and timeline for retiring the Legacy e-File system.
       We believe a Legacy e-file system retirement plan is important because it will prompt the
       IRS to define criteria on which to base its decision to recommend the retirement of this

                                                                                           Page 11
              Despite Steps Taken to Increase Electronic Returns,
                Unresolved Modernized e-File System Risks Will
               Delay the Retirement of the Legacy e-File System
                    and Implementation of Business Forms


system. By not including an implementation date and corrective action monitoring plans,
this recommendation has not been adequately addressed.




                                                                                Page 12
                             Despite Steps Taken to Increase Electronic Returns,
                               Unresolved Modernized e-File System Risks Will
                              Delay the Retirement of the Legacy e-File System
                                   and Implementation of Business Forms


                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

Our overall audit objective was to evaluate the IRS’s progress toward having transmitters1 fully
participate in the MeF System and retiring the Legacy e-File system in October 2012.
I.         Testing and Performance Readiness. Determined whether the IRS is ready to
           completely transition from the Legacy e-File system to the MeF system.
           A. Determined whether the MeF system is having performance issues.
               1. Observed Performance Enhancement Team testing to verify that best practices
                  were being followed.
               2. Reviewed the scope of performance testing and determined whether performance
                  testing included stress testing, load testing, and capacity testing.
               3. Verified that the test environment mimicked the production environment.
               4. Verified that performance testing encompassed returns with different forms.
               5. Verified that testing encompassed returns with various attachments (the size and
                  number of attachments).
           B. Determined whether the performance measures adequately supported the submission
              processing requirements.
               1. Compared the MeF Release 7.0 SAT Test Plan to SAT Test results. Ensured that
                  failed SAT test cases at deployment were satisfactorily resolved.
               2. Verified tax forms and schedules planned for MeF Release 7.0 were tested.
           C. Determined whether the IRS SAT tested the additional Form 1040, U.S. Individual
              Income Tax Return, series forms and if the results were positive.
               1. Reviewed the performance requirements for MeF Release 7.0 and compared them
                  with testing parameters and test cases.
               2. Reviewed and verified the process for documenting performance testing results.




1
    See Appendix V for a glossary of terms.
                                                                                            Page 13
                              Despite Steps Taken to Increase Electronic Returns,
                                Unresolved Modernized e-File System Risks Will
                               Delay the Retirement of the Legacy e-File System
                                    and Implementation of Business Forms


II.        Transmitter Readiness for Filing Season. Determined whether transmitters were ready
           to participate in the 2012 Filing Season.
           A. Determined whether software developers’ software packages were adequately tested
              and approved prior to transmitting returns to the MeF system.
                1. Obtained and reviewed an approved software developers list.
                2. Judgmentally2 selected and reviewed the test results for seven of 25 approved
                   transmitters’ software packages.
           B. Determined whether transmitters using the Legacy e-File system will be able to
              transition to using the MeF system. We obtained and analyzed a list of transmitters
              that met the mandate to file tax returns electronically regarding the following data
              points:
                1. The total number of tax returns filed for Tax Years 2009–2011.
                2. Whether the transmitter filed returns exclusively through the Legacy e-File
                   system, exclusively through the MeF system, or through a combination of the
                   Legacy e-File and MeF systems for Tax Years 2009–2011.
Internal Controls Methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Enterprise Life Cycle and related IRS
guidelines and the processes followed in the development of information technology projects.
We evaluated these controls by reviewing the guidelines, conducting interviews and meetings
with management and staff, and reviewing project documents.




2
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 14
                     Despite Steps Taken to Increase Electronic Returns,
                       Unresolved Modernized e-File System Risks Will
                      Delay the Retirement of the Legacy e-File System
                           and Implementation of Business Forms


                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Gwendolyn McGowan, Director, Systems Modernization and Applications Development
Carol Taylor, Audit Manager
Ryan Perry, Lead Auditor
Charlene Elliston, Senior Auditor
Cari Fogle, Senior Auditor
Sylvia Sloan-Copeland, Senior Auditor
Trisa Brewer, Auditor
Kevin Liu, Information Technology Specialist
Michael Mohrman, Information Technology Specialist
Robert Carpenter, Information Technology Specialist




                                                                                      Page 15
                    Despite Steps Taken to Increase Electronic Returns,
                      Unresolved Modernized e-File System Risks Will
                     Delay the Retirement of the Legacy e-File System
                          and Implementation of Business Forms


                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Strategy/Modernization OS:CTO
Director, Privacy, Information Protection and Data Security OS:P
Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
Deputy Associate Chief Information Officer, Applications Development OS:CTO:AD
Director, Program Management OS:CTO:AD:PM
Director, Submission Processing OS:CTO:AD:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PRA:PEI
       Director, Risk Management Division OS:CTO:SP:RM




                                                                                Page 16
                     Despite Steps Taken to Increase Electronic Returns,
                       Unresolved Modernized e-File System Risks Will
                      Delay the Retirement of the Legacy e-File System
                           and Implementation of Business Forms


                                                                                      Appendix IV

             Comparison of the Modernized e-File
                and Legacy e-File Systems

       Condition                 MeF e-File System                    Legacy e-File System

 Data Format                Extensible Markup                    American Standard Code for
                            Language (XML)                       Information Interchange (ASCII)
 Attachments                Accepted in Portable                 No attachments accepted
                            Document Format (PDF)
                            Transaction based system –           Batch return system using
 Transmissions              processed on receipt                 three drain times to process
                                                                 transmissions
 Acknowledgements           Acknowledgments returned             Acknowledgments returned
                            in real-time                         within two days of receipt
 Tax Return Errors          Business rules for each error        Error rejects codes that may
                            condition                            address multiple conditions
 Processing Year            Year-round processing                No electronically filed tax returns
                                                                 after October 15

 Prior Year Returns         Prior year tax returns in            Prior year tax returns are not
                            Filing Season 2011                   accepted
Source: IRS MeF system and Legacy e-File system documentation.




                                                                                                  Page 17
                        Despite Steps Taken to Increase Electronic Returns,
                          Unresolved Modernized e-File System Risks Will
                         Delay the Retirement of the Legacy e-File System
                              and Implementation of Business Forms


                                                                                Appendix V

                               Glossary of Terms

Term                            Definition

Capacity Testing                Testing used to determine how many users and/or transactions
                                a given system will support and still meet performance goals.

Central Processing Unit         An internal component of the computer that performs
                                arithmetic and logical operations, extracts instructions from
                                memory, decodes instructions, and executes instructions.

Controlled Data                 Data developed to test a specific set of conditions and
                                expected results for a particular test objective.

Data Caching                    Specialized, high-speed storage used to store frequently
                                accessed or recently accessed date.

Denial of Service               When a machine or network resource becomes unavailable to
                                its intended users.

Enterprise Life Cycle           A structured business systems development method that
                                requires the preparation of specific work products during
                                different phases of the development process.

Filing Season                   The period from January through mid-April when most
                                individual income tax returns are filed.

Internet Explorer               A series of graphical web browsers developed by the
                                Microsoft Corporation and included as part of the Microsoft
                                Windows operating system.

Java                            A general purpose, concurrent, class-based, object-oriented
                                language that is specifically designed to have as few
                                implementation dependencies as possible.




                                                                                           Page 18
                     Despite Steps Taken to Increase Electronic Returns,
                       Unresolved Modernized e-File System Risks Will
                      Delay the Retirement of the Legacy e-File System
                           and Implementation of Business Forms



Term                         Definition

Load Testing                 The process of putting demand on a system or device and
                             measuring its response. Load testing is performed to
                             determine a system’s behavior under both normal and
                             anticipated peak load conditions.

Mainframe Computer           A term that is used to distinguish high-end commercial
                             machines, with large-scale computer system architectures,
                             from less powerful units.

Memory Management            The act of managing computer memory. The essential
                             requirement of memory management is to provide ways to
                             dynamically allocate portions of memory to programs at their
                             request, freeing it for reuse when no longer needed.

Milestone                    Milestones provide for “go/no-go” decision points in a project
                             and are sometimes associated with funding approval to
                             proceed.

Patch                        A code change to fix a program bug.

Portal                       A point-of-entry into a network system that includes a search
                             engine or a collection of links to other sites, usually arranged
                             by topic.

Release                      A specific edition of software.

Requirement                  A statement of capability or condition that a system,
                             subsystem, or system component must have or meet to satisfy
                             a contract, standard, or specification.

Risk                         A potential event that could have an unwanted impact on the
                             cost, schedule, business, or technical performance of an
                             information technology program, project, or organization.

Stress Testing               A form of testing that determines the stability of a given
                             system to operate beyond normal capacity, often to a breaking
                             point, in order to observe the results.

Tax Year                     The year for which taxpayers file their Federal income tax
                             return.


                                                                                       Page 19
              Despite Steps Taken to Increase Electronic Returns,
                Unresolved Modernized e-File System Risks Will
               Delay the Retirement of the Legacy e-File System
                    and Implementation of Business Forms



Term                  Definition

Transmitter           A firm, organization, or individual that receives returns and
                      Personal Identification Number registrations electronically
                      from clients (Electronic Return Originators, Reporting Agents,
                      or taxpayers), reformats the data (if necessary), batches the
                      data with data from the returns and electronic Personal
                      Identification Number registrations of other clients, and then
                      transmits the data to the IRS.




                                                                             Page 20
       Despite Steps Taken to Increase Electronic Returns,
         Unresolved Modernized e-File System Risks Will
        Delay the Retirement of the Legacy e-File System
             and Implementation of Business Forms


                                                   Appendix VI

Management’s Response to the Draft Report




                                                             Page 21
Despite Steps Taken to Increase Electronic Returns,
  Unresolved Modernized e-File System Risks Will
 Delay the Retirement of the Legacy e-File System
      and Implementation of Business Forms




                                                      Page 22
Despite Steps Taken to Increase Electronic Returns,
  Unresolved Modernized e-File System Risks Will
 Delay the Retirement of the Legacy e-File System
      and Implementation of Business Forms




                                                      Page 23
Despite Steps Taken to Increase Electronic Returns,
  Unresolved Modernized e-File System Risks Will
 Delay the Retirement of the Legacy e-File System
      and Implementation of Business Forms




                                                      Page 24
